       U.S. Department of the Interior
       Office of Inspector General




                               New Chief Leschi School
                          Photo Courtesy Puyallup Tribe




Construction Costs for Chief Leschi School
    Puyallup Tribe, Puyallup, Washington
                 Bureau of Indian Affairs


                          Report No. 01-I-237
                                 March 2001
                United States Department of the Interior

                                  Office of Inspector General
                                        Western Region
                                           Federal Building
                                    2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825

                                                                                     March 5, 2001
                                      Advisory Report
Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Michael P. Colombo
           Regional Audit Manager, Western Region

Subject: Advisory Report on Survey of Construction Costs for Chief Leschi School,
         Constructed by the Puyallup Tribe Under Bureau of Indian Affairs Replacement
         School Construction Program (Report No. 01-I-237)

Following are the results of our survey of the costs of the Chief Leschi School, constructed
near Puyallup, Washington, by the Puyallup Tribe under the Bureau of Indian Affairs (BIA)
Replacement School Construction Program. The objective of our survey was to determine
whether the school was constructed in accordance with applicable BIA guidelines.

                                     Construction of the Chief Leschi School was
    Background and Scope             necessitated after the Assistant Secretary for Indian
                                     Affairs condemned the middle/high school portion of
                                     the old school in 1991 as “an immediate hazard to
health and safety” and ordered it vacated. Construction of the new school began in
May 1995 and was substantially completed in November 1996. Students, however, began
occupying the school in September 1996. From May 1995 to September 1996, the middle
and high school students were temporarily housed in leased facilities. Projected
enrollment for the new school was 1,077 students, ranging from Pre-Kindergarten through
Grade 12.

We selected the Chief Leschi School for review because the $28.9 million1 appropriated
for school construction represented 25 percent of the $117.4 million appropriated for
replacement school construction from fiscal years 1991 to 1997. We conducted our survey


1
 The $28.9 million consisted of $3.1 million awarded to the Tribe under Public Law 93-638, the Indian
Self-Determination and Education Assistance Act of 1975 (25 U.S.C. 450 et seq.), and $25.8 million
awarded under an existing grant through Public Law 100-297, the Tribally Controlled Schools Act of
1988 (25.U.S.C. 2501 et seq.).

                                                    1
at the Chief Leschi School and at BIA’s Facilities Management and Construction Center
(FMCC) in Albuquerque, New Mexico, and Office of Indian Education Programs in
Portland, Oregon. To accomplish our objective, we reviewed laws, regulations, policies,
and guidelines governing the construction of replacement schools; BIA processes for
approving and monitoring school construction; the single audit reports for the Chief Leschi
School for fiscal years 1994 through 1998; and the certified public accountant’s working
papers for fiscal years 1996 and 1997.

Our review was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of
records and other procedures that were considered necessary to accomplish our objective.
As part of our survey, we reviewed the Departmental Reports on Accountability, which
included information required by the Federal Managers’ Financial Integrity Act, and BIA’s
annual assurance statements on management controls for fiscal years 1996, 1997, and 1998.
Based on those reviews, we determined that no material weaknesses were reported that
directly related to the objective and scope of our survey.

                                  We found that although the Chief Leschi School was
    Results of Survey             constructed within the $28.9 million of contract and grant
                                  monies provided by BIA, the FMCC did not (1) sufficiently
                                  monitor construction planning to identify variances between
the Program of Requirements (POR) 2 prepared for the School and the construction design
specifications or (2) remove the old Chief Leschi School buildings from the data base used
to track buildings eligible to receive BIA operation and maintenance funds, as follows.

     ‘   Under BIA’s process for planning and approving construction of school facilities,
         the FMCC prepares the POR and uses it to monitor construction planning and
         ensure that design specifications comply with the size and nature of the facilities
         provided for in the POR. The POR for the Chief Leschi School stated that the
         school was not to exceed a maximum of 175,924 square feet and provided for
         construction of athletic fields. The school design submitted to FMCC, however,
         totaled 181,427 square feet, or 5,530 square feet more than established in the
         POR, and did not include athletic fields. The FMCC either did not detect or did
         not question the difference between the design specification submitted and the
         POR. As a consequence, the school, as constructed by the Tribe’s contractor, was
         larger than specified in the POR, resulting in additional costs of about $666,000
         and the need to rent facilities for outdoor sports activities at a cost of about
         $10,000 a year.

     ‘   During construction of the new Chief Leschi School, elementary students continued
         to be housed in the elementary portion of the old school, which was in serviceable
         condition, and middle/high school students were housed in leased facilities.
         During this time, BIA appropriately paid to maintain the portion of the old school
         that was being used and the leased facilities. With the occupation of the new

2
 The POR is a document prepared by the FMCC to establish the size and nature of facilities to be
provided.

                                                   2
        school buildings in September 1996, however, BIA did not remove the old school
        facilities from its data base. As a result, BIA erroneously paid the Puyallup
        School Board $815,557 to maintain 97,639 square feet of the old Chief Leschi
        school buildings from October 1996 through September 2000 (see Appendix 1)
        and has not attempted to recover the erroneous payments from the School. BIA
        later recalculated the amount to $785,310.

                               We recommend that you ensure that appropriate BIA
 Recommendations               officials:


        1. Monitor construction planning to ensure that the design specifications of
           schools comply with the POR.

        2. Make a final determination on the allowability of the $785,310 erroneously
           paid for operation and maintenance for fiscal years 1997 through 2000 and
           recover the amounts determined to be unallowable.

                                 In your December 8, 2000 response (Appendix 2), you
 Agency Response                 concurred with our recommendations and stated that BIA
                                 had recalculated the amount erroneously paid for operation
                                 and maintenance for fiscal years 1997 through 2000 to be
$785,310. We accept that calculation as the amount that will be recovered and adjusted
the amount in Recommendation 2 accordingly. You subsequently designated the
responsible official for implementing the recommendations as the Education Line Officer
for the Portland Area Office and the target date for action as March 30, 2001. Based on
your response, we consider the two recommendations resolved and are referring them to
the Assistant Secretary for Policy, Management and Budget for tracking of implementation.
Accordingly, no further response to our office is necessary (Appendix 3).

The legislation, as amended, creating the Office of Inspector General, requires semiannual
reporting to Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.

If you have any questions regarding this report, please call me at (916) 978-5653 or
Mr. Andrew P. Rosenberger, Senior Auditor, Western Region, at (916) 978-5624.




                                             3
Appendix 1
Questioned Operation and Maintenance Costs


    Fiscal                             Square          Funded   Percentage of Year
    Year           Description        Footage1          Rate1   Facilities Not Used    Amount 2

    1997       Non-Maintained           40,6383         $0.15          100%               $6,096
               Maintained               57,0014         $5.50          100%              313,505

               Subtotal                                                                  319,601

               Non-Maintained           40,6383         $0.15          100%               $6,096
               Maintained               57,0014         $3.99          100%              227,434

               Subtotal                                                                  233,530

               Non-Maintained           40,6383         $0.15          100%               $6,096
               Maintained               57,0014         $4.24          100%              241,684

               Subtotal                                                                  247,780


    2000       Non-Maintained           97,6395         $0.15          100%              $14,646
               Total                                                                    $815,557




1
 Square footages and funding rates were obtained from FMCC.
2
 The amount was determined by multiplying the square footage times the funded rate times the percentage
of the year the facilities were not used.
3
 This number is the square footage of the middle/high school portion of the old Chief Leschi School
facilities which was condemned in 1991, boarded up for safety purposes, and held in “non-maintained”
status.
4
 Old elementary school facilities were funded for 12 months (October 1996 through September 1997)
and all of fiscal years 1998 and 1999, when they were not occupied, after the new Chief Leschi School
facilities were opened in September 1996.
5
 In fiscal year 2000, the old elementary school facilities were reclassified as non-maintained, which,
when combined with the middle/high school facilities, resulted in 97,639 (40,638 + 57,001) square feet
of non-maintained space.

                                                   4
                                     Appendix 2
Assistant Secretary for Indian Affairs Response




          5
6
7
Appendix 3
Status of Recommendations



  Recommendation
       Nos.               Status                 Action Required
      1 and 2      Resolved; not       No further response to the Office of
                   implemented         Inspector General is required. The
                                       recommendations will be forwarded to
                                       the Assistant Secretary for Policy,
                                       Management and Budget for tracking of
                                       implementation




                                   8
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           H OT LI N E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
